                                                                               Federal Register / Vol. 76, No. 52 / Thursday, March 17, 2011 / Proposed Rules                                          14637

                                                           • E-mail: a-and-r-docket@epa.gov.                    Electronic files should avoid the use of              DEPARTMENT OF HEALTH AND
                                                        Attention Docket ID Number EPA–HQ–                      special characters, any form of                       HUMAN SERVICES
                                                        OAR–2004–0305.                                          encryption, and be free of any defects or
                                                           • Fax: (202) 566–9744. Attention                     viruses.                                              Office of Inspector General
                                                        Docket ID Number EPA–HQ–OAR–
                                                                                                                   Docket: All documents in the docket
                                                        2004–0305.                                                                                                    42 CFR Part 1007
                                                           • Mail: U.S. Postal Service, send                    are listed in the http://
                                                        comments to: EPA Docket Center                          www.regulations.gov index. Although                   [OIG–1203–P]
                                                        (6102T), EPA West (Air Docket),                         listed in the index, some information is
                                                                                                                not publicly available, e.g., CBI or other            State Medicaid Fraud Control Units;
                                                        Attention Docket ID Number EPA–HQ–
                                                                                                                information whose disclosure is                       Data Mining
                                                        OAR–2004–0305, U.S. Environmental
                                                        Protection Agency, Mailcode 2822T,                      restricted by statute. Certain other
                                                                                                                                                                      AGENCY: Office of Inspector General
                                                        1200 Pennsylvania Ave., NW.,                            material, such as copyrighted material,
                                                                                                                                                                      (OIG), HHS.
                                                        Washington, DC 20460. Please include a                  will be publicly available only in hard
                                                                                                                copy. Publicly available docket                       ACTION: Proposed rule.
                                                        total of two copies. In addition, please
                                                        mail a copy of your comments on the                     materials are available either                        SUMMARY: This proposed rule amends a
                                                        information collection provisions to the                electronically in http://                             provision in HHS regulations that
                                                        Office of Information and Regulatory                    www.regulations.gov or in hard copy at                prohibits State Medicaid Fraud Control
                                                        Affairs, Office of Management and                       the EPA Docket Center, EPA West,                      Units (MFCU) from using Federal
                                                        Budget, Attn: Desk Officer for EPA, 725                 Room 3334, 1301 Constitution Ave.,                    matching funds to identify fraud
                                                        17th St., NW., Washington, DC 20503.                    NW., Washington, DC. The Public                       through screening and analyzing State
                                                           • Hand Delivery: U.S. Environmental                  Reading Room is open from 8:30 a.m. to                Medicaid claims data, known as data
                                                        Protection Agency, EPA West (Air                        4:30 p.m., Monday through Friday,                     mining. To support and modernize
                                                        Docket), Room 3334, 1301 Constitution                   excluding legal holidays. The telephone               MFCU efforts to effectively pursue
                                                        Avenue, NW., Washington, DC 20004,                      number for the Public Reading Room is                 Medicaid provider fraud, we propose to
                                                        Attention Docket ID Number EPA–HQ–                      (202) 566–1744, and the telephone                     permit Federal Financial Participation
                                                        OAR–2004–0305. Such deliveries are                      number for the Docket Center is (202)                 (FFP) in the costs of defined data
                                                        only accepted during the Docket’s                       566–1742.                                             mining activities under specified
                                                        normal hours of operation, and special                                                                        conditions. In addition, we propose that
                                                                                                                FOR FURTHER INFORMATION CONTACT:
                                                        arrangements should be made for                                                                               MFCUs annually report the costs and
                                                        deliveries of boxed information. Please                 Questions concerning the proposed rule
                                                                                                                should be addressed to Mr. Nathan                     results of approved data mining
                                                        include a total of two copies.                                                                                activities to OIG.
                                                           Instructions: Direct your comments to                Topham, Office of Air Quality Planning
                                                                                                                and Standards, Sector Policies and                    DATES: To ensure consideration, public
                                                        Docket ID No. EPA–HQ–OAR–2004–
                                                        0305. EPA’s policy is that all comments                 Programs Division, Metals and Inorganic               comments must be delivered to the
                                                        received will be included in the public                 Chemicals Group (D243–02),                            address provided below no later than
                                                        docket without change and may be                        Environmental Protection Agency,                      5 p.m. on May 16, 2011.
                                                        made available online at http://                        Research Triangle Park, NC 27711,                     ADDRESSES: In commenting, please refer
                                                        www.regulations.gov, including any                      telephone number: (919) 541–0483; fax                 to file code OIG–1203–P. Because of
                                                        personal information provided, unless                   number: (919) 541–3207; e-mail                        staff and resource limitations, we cannot
                                                        the comment includes information                        address: topham.nathan@epa.gov.                       accept comments by facsimile (FAX)
                                                        claimed to be Confidential Business                                                                           transmission.
                                                                                                                SUPPLEMENTARY INFORMATION:   For the
                                                        Information (CBI) or other information                                                                           You may submit comments in one of
                                                                                                                reasons noted above, the public
                                                        whose disclosure is restricted by statute.                                                                    three ways (please choose only one of
                                                                                                                comment period will now end on April
                                                        Do not submit information that you                                                                            the ways listed):
                                                                                                                19, 2011.
                                                        consider to be CBI or otherwise                                                                                  1. Electronically. You may submit
                                                        protected through http://                               How can I get copies of the proposed                  electronic comments on specific
                                                        www.regulations.gov or e-mail. The                      rule and other related information?                   recommendations and proposals
                                                        http://www.regulations.gov Web site is                                                                        through the Federal eRulemaking Portal
                                                        an ‘‘anonymous access’’ system, which                     The proposed rule titled, National                  at http://www.regulations.gov.
                                                        means EPA will not know your identity                   Emission Standards for Hazardous Air                  (Attachments should be in Microsoft
                                                        or contact information unless you                       Pollutants: Primary Lead Smelting, was                Word, if possible.)
                                                        provide it in the body of your comment.                 published February 17, 2011 (76 FR                       2. By regular, express, or overnight
                                                        If you send an e-mail comment directly                  9410). EPA has established the public                 mail. You may send written comments
                                                        to EPA without going through http://                    docket for the proposed rulemaking                    to the following address: Office of
                                                        www.regulations.gov, your e-mail                        under docket ID No. EPA–HQ–OAR–                       Inspector General, Department of Health
                                                        address will be automatically captured                  2004–0305, and a copy of the proposed                 and Human Services, Attention: OIG–
                                                        and included as part of the comment                     rule is available in the docket. We note              1203–P, Room 5541, Cohen Building,
                                                        that is placed in the public docket and                 that, since the proposed rule was                     330 Independence Avenue, SW.,
WReier-Aviles on DSKGBLS3C1PROD with PROPOSALS-1




                                                        made available on the Internet. If you                  published, additional materials have                  Washington, DC 20201. Please allow
                                                        submit an electronic comment, EPA                       been added to the docket. Information                 sufficient time for mailed comments to
                                                        recommends that you include your                        on how to access the docket is presented              be received before the close of the
                                                        name and other contact information in                   above in the ADDRESSES section.                       comment period.
                                                        the body of your comment and with any                     Dated: March 10, 2011.                                 3. By hand or courier. If you prefer,
                                                        disk or CD–ROM you submit. If EPA                                                                             you may deliver, by hand or courier,
                                                                                                                Gina McCarthy,
                                                        cannot read your comment due to                                                                               your written comments before the close
                                                        technical difficulties and cannot contact               Assistant Administrator.                              of the comment period to Office of
                                                        you for clarification, EPA may not be                   [FR Doc. 2011–6218 Filed 3–16–11; 8:45 am]            Inspector General, Department of Health
                                                        able to consider your comment.                          BILLING CODE 6560–50–P                                and Human Services, Cohen Building,


                                                   VerDate Mar<15>2010   14:47 Mar 16, 2011   Jkt 223001   PO 00000   Frm 00046   Fmt 4702   Sfmt 4702   E:\FR\FM\17MRP1.SGM   17MRP1
                                                        14638                  Federal Register / Vol. 76, No. 52 / Thursday, March 17, 2011 / Proposed Rules

                                                        330 Independence Avenue, SW.,                           costs of establishing and operating a                 operated by HHS and the U.S.
                                                        Washington, DC 20201. Because access                    MFCU, including the costs of training,                Department of Justice have identified
                                                        to the interior of the Cohen Building is                and 75 percent FFP thereafter.                        seven ‘‘hot spots’’ based on high
                                                        not readily available to persons without                Presently, all States with MFCUs receive              indicators of fraud against the Medicare
                                                        Federal Government identification,                      FFP at a 75 percent rate. General                     program. The Strike Forces analyze
                                                        commenters are encouraged to schedule                   administrative costs of operating a State             Medicare data to identify unexplained
                                                        their delivery with one of our staff                    Medicaid program are reimbursed at a                  high-billing levels in concentrated areas
                                                        members at (202) 619–1343.                              rate of 50 percent, although enhanced                 so that interagency teams can target
                                                           For information on viewing public                    FFP rates are available for other                     emerging or migrating schemes along
                                                        comments, please see the                                activities, including those associated                with chronic fraud. By using data
                                                        SUPPLEMENTARY INFORMATION section.                      with Medicaid management information                  mining and other law enforcement tools
                                                        FOR FURTHER INFORMATION CONTACT:                        systems (MMIS).                                       to efficiently focus Federal law
                                                        Richard Stern, Department of Health &                      To increase MFCU effectiveness in                  enforcement activities, Medicare Fraud
                                                        Human Services, Office of Inspector                     eliminating Medicaid fraud, we propose                Strike Force efforts have resulted in
                                                        General, (202) 619–0480.                                to modify an existing prohibition on the              hundreds of criminal charges,
                                                                                                                payment of FFP for activities generally               convictions and more than $355 million
                                                        SUPPLEMENTARY INFORMATION:
                                                                                                                known as ‘‘data mining.’’ We discuss the              in court-ordered restitutions, fines and
                                                           Inspection of Public Comments: All                   reasons for this proposed modification                penalties for fraud against the Medicare
                                                        comments received before the end of the                 below.                                                program since 2007. We could not
                                                        comment period are available for                           For the purposes of this proposed                  attribute these results directly to use of
                                                        viewing by the public, including any                    rule, we are using the term ‘‘data                    data mining and data analysis
                                                        personally identifiable or confidential                 mining’’ to refer specifically to the                 techniques alone. Moreover, we would
                                                        business information that is included in                practice of electronically sorting                    not expect individual State MFCUs to
                                                        a comment. All comments will be                         Medicaid claims through statistical                   produce results comparable to the
                                                        posted on http://www.regulations.gov as                 models and intelligent technologies to                combined efforts of HHS and DOJ in a
                                                        soon as possible after they have been                   uncover patterns and relationships                    high priority national Medicare
                                                        received. Comments received timely                      contained within the Medicaid claims                  investigative and prosecutorial effort.
                                                        will also be available for public                       activity and history to identify aberrant             However, we anticipate that data mining
                                                        inspection as they are received,                        utilization and billing practices that are            by MFCUs at the State level could
                                                        generally beginning approximately 3                     potentially fraudulent.                               enhance the MFCU’s ability to counter
                                                        weeks after publication of a document,                     Routine program monitoring                         new and existing fraud schemes by
                                                        at Office of Inspector General,                         activities, including data mining, are                more effectively identifying early fraud
                                                        Department of Health and Human                          conducted through analysis of Medicaid                indicators. In addition, data mining
                                                        Services, Cohen Building, 330                           data and have historically been the                   would equip MFCUs with more modern
                                                        Independence Avenue, SW.,                               responsibility of each State Medicaid                 tools that have been shown at the
                                                        Washington, DC 20201, Monday                            agency. This practice places the sole                 Federal level to help increase the
                                                        through Friday of each week from 10                     burden of identifying potentially                     numbers of credible investigative leads,
                                                        a.m. to 5 p.m. To schedule an                           fraudulent practices based on this type               pursue recoveries, and detect emerging
                                                        appointment to view public comments,                    of analysis on the State Medicaid                     fraud and abuse schemes and trends.
                                                        phone (202) 619–1368.                                   agencies and requires the MFCUs to                       The 1978 publication of the final rule
                                                        I. Background                                           remain highly dependent on referrals                  now codified in 42 CFR part 1007
                                                                                                                from State Medicaid agencies and other                addressed in some detail the
                                                           In 1977, the Medicare-Medicaid Anti-                 external sources.                                     relationship between the MFCUs and
                                                        Fraud and Abuse Amendments (Pub. L.                        While MFCUs may have access to                     the State Medicaid agency. In response
                                                        95–142) were enacted to strengthen the                  Medicaid data, which currently may be                 to a comment that MFCUs should be
                                                        capability of the Government to detect,                 used for the purposes of individual case              responsible for the ‘‘investigation of
                                                        prosecute, and punish fraudulent                        development, they do not have the                     non-fraudulent program abuse,’’ the
                                                        activities under the Medicare and                       authority to claim FFP to conduct data                preamble to the final rule noted that
                                                        Medicaid programs. Section 17(a) of the                 mining to identify potential Medicaid                 functions such as ‘‘claims processing,
                                                        statute amended section 1903(a) of the                  fraud and, therefore, are limited to                  utilization control and other reviews or
                                                        Social Security Act (the Act) to provide                relying on referrals from State Medicaid              analysis’’ are already subject to incentive
                                                        for Federal participation in the costs                  agencies based on the State agencies’                 funding as part of the mechanized
                                                        attributable to establishing and                        analysis methods, tools, and techniques.              claims processing systems operated by
                                                        operating an MFCU. The requirements                     Many MFCUs work actively with a                       the State Medicaid agency (43 FR 32078,
                                                        for operating an MFCU appear at section                 variety of State agencies and private                 32080–32081 (July 24, 1978)). The
                                                        1903(q) of the Act. Regulations                         referral sources, such as individual                  preamble stated that ‘‘there is no
                                                        implementing the MFCU authority                         providers and private citizens, to                    indication that Congress intended an
                                                        appear at 42 CFR part 1007 and were                     identify possible fraud or cases of                   overlap of funding for such matters’’ (43
                                                        promulgated in 1978.                                    patient abuse and neglect and to                      FR 32081). Data mining is one such
WReier-Aviles on DSKGBLS3C1PROD with PROPOSALS-1




                                                           Section 1903(a)(6) of the Act requires               undertake detection activities.                       function that may be conducted as part
                                                        the Secretary of Health and Human                          We believe that amending the existing              of the State Medicaid agency’s
                                                        Services (the Secretary) to pay FFP to a                regulation to permit FFP in data mining               mechanized claims processing system
                                                        State for MFCU costs ‘‘found necessary                  activities will be an efficient use of                and is subject to Federal reimbursement
                                                        by the Secretary for the elimination of                 available resources. At the Federal level,            received by State Medicaid agencies.
                                                        fraud in the provision and                              analysis of claims data has increased                    Since issuance of the 1978 rule, tools
                                                        administration of medical assistance                    OIG’s effectiveness in deploying law                  and methods for identifying aberrant
                                                        provided under the State plan.’’ Under                  enforcement resources and proactively                 patterns in claims data have advanced
                                                        the section, States receive 90 percent                  identifying suspected fraud. Using data               significantly and become more widely
                                                        FFP for an initial 3 year period for the                analysis, Medicare Fraud Strike Forces                available. At the same time, health care


                                                   VerDate Mar<15>2010   14:47 Mar 16, 2011   Jkt 223001   PO 00000   Frm 00047   Fmt 4702   Sfmt 4702   E:\FR\FM\17MRP1.SGM   17MRP1
                                                                               Federal Register / Vol. 76, No. 52 / Thursday, March 17, 2011 / Proposed Rules                                           14639

                                                        fraud schemes have become more                          codes) may result in certain data                     data mining to include the following
                                                        sophisticated. Use of data mining                       appearing aberrant when in fact they are              information in their annual report: Costs
                                                        technology is a strategy that is routinely              not. In such situations, MFCU staff                   associated with expenditures attributed
                                                        used by law enforcement agencies to                     conducting data mining would need to                  to data mining activities; the number of
                                                        identify billing patterns and provider                  rely on the programmatic knowledge of                 cases generated from those data mining
                                                        linkages that may have been previously                  State Medicaid agency staff to                        activities; the outcome and status of
                                                        undetected with traditional methods of                  appropriately identify possible                       those cases; and monetary recoveries
                                                        claims review. We believe that allowing                 instances of fraud. Third, we believe                 resulting from those activities. This
                                                        MFCUs the ability to receive funding for                that MFCU staff would need to be                      information will be used by OIG in
                                                        use of sophisticated data mining                        properly trained in data mining                       conducting its oversight and monitoring
                                                        technology would allow them to                          techniques.                                           of the MFCUs.
                                                        marshal their resources more effectively                  For these reasons, we are proposing to
                                                        and take full advantage of their                        include additional language in 42 CFR                 II. Provisions of the Proposed
                                                        expertise in detecting and investigating                section 1007.20 that establishes the                  Regulation
                                                        Medicaid fraud. It would also allow the                 following conditions under which an                      Federal regulations at 42 CFR
                                                        MFCUs to operate without relying solely                 MFCU may claim FFP in costs of data                   1007.19(e)(2) specify that State MFCUs
                                                        on individual case referrals from a                     mining: (1) The MFCU describes the                    are prohibited from using Federal
                                                        Medicaid program integrity unit or from                 duration of the data mining activity and              matching funds to conduct ‘‘efforts to
                                                        other sources.                                          the amount of staff time to be expended;              identify situations in which a question
                                                           ‘‘Review contractors’’ selected by the               (2) the MFCU identifies the methods of                of fraud may exist, including the
                                                        CMS Medicaid Integrity Group also may                   cooperation between the MFCU and                      screening of claims, analysis of patterns
                                                        perform data mining as part of their                    Medicaid agency, and between the                      of practice, or routine verification with
                                                        activities. Therefore, MFCUs that                       MFCU and review contractors selected                  recipients of whether services billed by
                                                        receive approval to conduct data mining                 by the CMS Medicaid Integrity Group;                  providers were actually received.’’ The
                                                        as part of their respective                             and (3) MFCU employees engaged in                     prohibition on Federal matching for
                                                        memorandums of understanding would                      data mining receive specialized training              ‘‘screening of claims [and] analysis of
                                                        need to coordinate their activities both                in data mining techniques. We are also                patterns of practice’’ is commonly
                                                        with State Medicaid agencies and the                    proposing that the agreement between                  interpreted as a prohibition on Federal
                                                        review contractors. All review                          the MFCU and Medicaid agency,                         matching for the costs of data mining by
                                                        contractors already operate under a                     required under section 1007.9(d) of the               MFCUs. We propose to amend section
                                                        ‘‘Joint Operating Agreement’’ with each                 regulations, describe how the MFCU                    1007.19(e) to provide for an exception to
                                                        of the States in which they are                         will satisfy these conditions and that                this general prohibition on FFP under
                                                        operating. Review contractors are also                  OIG, as the oversight agency for the                  conditions described in new section
                                                        required to share with MFCUs, as well                   MFCUs, must approve this part of the                  1007.20.
                                                        as with other interested law                            agreement. OIG would review and                          We propose to add a new section
                                                        enforcement or oversight agencies, the                  approve proposed agreements in                        1007.20 that would describe the
                                                        algorithms they are using and the                       consultation with CMS. FFP will only                  conditions under which the Federal
                                                        identity of any targets that are identified             be available to those States that satisfy             share of data mining costs would be
                                                        as a result of their data mining                        the conditions at section 1007.20 and                 available to MFCUs. We would also
                                                        activities.                                             receive approval from OIG.                            amend section 1007.1 (Definitions) by
                                                           A 2007 OIG study identified                            Including the terms of an MFCU’s                    adding a definition of data mining for
                                                        variability among States in the level of                data mining in the existing agreement                 the purposes of this rule. Finally, the
                                                        cooperation in identifying cases of                     with the Medicaid agency would be
                                                                                                                                                                      proposed rule would amend 42 CFR
                                                        potential fraud and in the number and                   logical and efficient. Data mining has
                                                                                                                                                                      section 1007.17 (Annual Report) to
                                                        quality of referrals from State Medicaid                been the traditional province of State
                                                                                                                                                                      include additional reporting
                                                        agencies to MFCUs (Suspected Medicaid                   Medicaid agencies and depends upon
                                                                                                                                                                      requirements by MFCUs to capture costs
                                                        Fraud Referrals, OEI–07–04–00181,                       access to data maintained by the
                                                                                                                                                                      associated with expenditures attributed
                                                        January 2007). Based on the variability                 Medicaid agencies. Thus, data mining
                                                                                                                                                                      to data mining activities; the number of
                                                        found in this study, we believe that                    requires unique coordination of the
                                                                                                                                                                      cases generated from those data mining
                                                        allowing MFCUs to claim FFP to                          resources and expertise of both an
                                                                                                                                                                      activities; the outcome and status of
                                                        conduct data mining, performed in                       MFCU and a State Medicaid agency to
                                                                                                                                                                      those cases; and monetary recoveries
                                                        cooperation with the State Medicaid                     avoid duplication and to leverage each
                                                        agencies, would reduce such variability                 agency’s resources. We do not intend                  resulting from those activities.
                                                        and increase the level of referrals in                  that this coordination, as part of the                III. Regulatory Impact Statement
                                                        some States.                                            agreement between the agencies,
                                                           We believe that three elements are                   interfere with an MFCU’s independence                 A. Regulatory Analysis
                                                        critical to ensuring the effective use of               or its separate and distinct identity. As               We have examined the impacts of this
                                                        data mining by MFCUs. First, we                         before, a Medicaid agency may not                     proposed rule as required by Executive
                                                        believe that MFCUs and State Medicaid                   provide ongoing scrutiny or review of                 Order 12866, the Unfunded Mandates
WReier-Aviles on DSKGBLS3C1PROD with PROPOSALS-1




                                                        agencies must fully coordinate the                      an MFCU’s data mining activities and                  Reform Act of 1995, and the Regulatory
                                                        MFCUs’ use of data mining and the                       under no circumstances would a State                  Flexibility Act of 1980 (RFA) (Pub. L.
                                                        identification of possible provider fraud.              Medicaid agency be able to prevent or                 96–354).
                                                        For example, MFCUs should not pursue                    prohibit an MFCU from initiating,
                                                        fraud investigations without                                                                                  Executive Order 12866
                                                                                                                carrying out or completing an
                                                        determining whether the State Medicaid                  investigation or prosecution that may                   Executive Order 12866 directs
                                                        agency is considering an overpayment                    result from data mining.                              agencies to assess all costs and benefits
                                                        or other administrative action for the                    We are also proposing to add a                      of available regulatory alternatives and,
                                                        same provider. Second, programmatic                     provision that requires those MFCUs                   when regulation is necessary, to select
                                                        changes (for example, changes in billing                approved to claim FFP and engage in                   regulatory approaches that maximize


                                                   VerDate Mar<15>2010   14:47 Mar 16, 2011   Jkt 223001   PO 00000   Frm 00048   Fmt 4702   Sfmt 4702   E:\FR\FM\17MRP1.SGM   17MRP1
                                                        14640                  Federal Register / Vol. 76, No. 52 / Thursday, March 17, 2011 / Proposed Rules

                                                        net benefits (including potential                       their regulatory actions on State, local,             information requirement is submitted to
                                                        economic, environmental, public health,                 and tribal governments and the private                Office of Management and Budget
                                                        and safety effects; distributive impacts;               sector. Under UMRA, before issuing any                (OMB) for review and approval, we are
                                                        and equity). A regulatory impact                        rule that may result in costs greater than            required to provide a 60-day notice in
                                                        analysis must be prepared for major                     $110 million to State, local, or tribal               the Federal Register and solicit public
                                                        rules with economically significant                     governments, in the aggregate, or to the              comment. We propose to require that
                                                        effects ($100 million or more in any                    private sector, agencies must assess the              MFCUs report annually on the costs of
                                                        given year). Since this proposed                        rule’s anticipated costs and benefits.                data mining and the outcomes of cases
                                                        regulation will not have a significant                  This proposed rule does not impose any                identified, including monetary
                                                        effect on program expenditures and as                   Federal mandates on any State, local, or              recoveries. In order to evaluate fairly
                                                        there are no additional substantive costs               tribal government or the private sector               whether this information collection
                                                        to implement the resulting provision,                   within the meaning of UMRA, and thus,                 should be approved by OMB, section
                                                        we do not consider this to be a major                   a full analysis under UMRA is not                     3506(c)(2)(A) of the PRA requires that
                                                        rule.                                                   necessary.                                            we solicit comment on the following
                                                           The proposed rule would allow                                                                              issues:
                                                        MFCUs to obtain Federal matching                        Regulatory Flexibility Act
                                                                                                                   The Regulatory Flexibility Act (RFA)                  • The need for the information
                                                        funds to conduct data mining in efforts
                                                        to detect potential fraudulent activity.                (5 U.S.C. 601 et seq.) generally requires             collection and its usefulness in carrying
                                                        We believe that the aggregate economic                  an agency to conduct a regulatory                     out the proper functions of our agency;
                                                        impact of this rule will be minimal and                 flexibility analysis of any rule subject to              • The accuracy of our estimate of the
                                                        will have no significant effect on the                  notice and comment rulemaking                         information collection burden;
                                                        economy or on Federal or State                          requirements unless the agency certifies                 • The quality, utility, and clarity of
                                                        expenditures. However, since MFCUs                      that the rule will not have a significant             the information to be collected; and
                                                        have until this year not conducted data                 economic impact on a substantial
                                                        mining, we have only limited                            number of small entities. For the                        • Recommendations to minimize the
                                                        information about costs and benefits at                 purposes of RFA, small entities include               information collection burden on the
                                                        the State level. One State MFCU,                        small businesses, certain nonprofit                   affected public, including automated
                                                        Florida, received approval from the                     organizations, and small government                   collection techniques.
                                                        Secretary of Health and Human Services                  jurisdictions. Individuals and States are                Under the PRA, the time, effort, and
                                                        to conduct data mining as a                             not included in this definition of a small            financial resources necessary to meet
                                                        demonstration project under section                     entity. This proposed rule would revise               the information collection requirements
                                                        1115 of the Social Security Act that                    regulations that prohibit State MFCUs                 referenced in this section are to be
                                                        commenced on August 1, 2010.                            from using Federal matching funds to                  considered. We explicitly seek, and will
                                                           Any economic impact from                             conduct ‘‘efforts to identify situations in           consider, public comment on our
                                                        reimbursing State MFCU data mining                      which a question of fraud may exist,                  assumptions as they relate to the PRA
                                                        activities will likely result in savings of             including the screening of claims,                    requirements summarized in this
                                                        both State and Federal dollars. For the                 analysis of patterns of practice, or                  section. Comments on these information
                                                        MFCU community as a whole, the                          routine verification with recipients of               collection activities should be sent to
                                                        return on investment from MFCU                          whether services billed by a provider                 the following address within 60 days
                                                        activities (calculated from the ratio of                were actually received.’’ These revisions             following the Federal Register
                                                        total reported dollar value of civil and                impose no significant economic impact                 publication of this proposed rule: OIG
                                                        criminal recoveries to the total dollar                 on a substantial number of small                      Desk Officer, Office of Management and
                                                        value of Federal and State expenditures                 entities. Therefore, the undersigned                  Budget, Room 10235, New Executive
                                                        for all MFCUs) exceeded 6.0 for the last                certifies that this rule will not have a              Office Building, 725 17th Street, NW.,
                                                        3 available years, Federal Fiscal Years                 significant impact on a substantial                   Washington, DC 20053.
                                                        (FYs) 2007, 2008, and 2009. This ratio                  number of small entities.
                                                        does not reflect the considerable output                                                                      IV. Public Inspection of Comments and
                                                        of the MFCUs related to their criminal                  Executive Order 13132                                 Response to Comments
                                                        prosecutions that do not result in                         Executive Order 13132 (entitled
                                                                                                                                                                        Comments will be available for public
                                                        monetary recoveries, including more                     ‘‘Federalism’’) prohibits, to the extent
                                                                                                                                                                      inspection beginning May 16, 2011, in
                                                        than 1,200 criminal convictions for each                practicable and permitted by law, an
                                                                                                                                                                      Room 5541, Office of External Affairs,
                                                        of FYs 2007, 2008, and 2009.                            agency from promulgating a regulation
                                                                                                                                                                      Office of Inspector General, at 330
                                                           We anticipate that the return on                     that has federalism implications and
                                                                                                                                                                      Independence Avenue, SW.,
                                                        investment from data mining activities                  either imposes substantial direct
                                                                                                                                                                      Washington, DC 20201, from Monday
                                                        by the MFCUs will enhance the ability                   compliance costs on State and local
                                                                                                                                                                      through Friday of each week (Federal
                                                        of MFCUs to effectively target and                      governments and is not required by
                                                                                                                                                                      holidays excepted) between the hours of
                                                        deploy existing enforcement resources,                  statute, or preempts State law, unless
                                                                                                                                                                      10 a.m. and 5 p.m., (202) 619–1368.
                                                        which is expected to result in increased                the relevant requirements of section 6 of
                                                        numbers of enforcement actions and                      the Executive Order are met. This rule                  Because of the large number of items
WReier-Aviles on DSKGBLS3C1PROD with PROPOSALS-1




                                                        recoveries. To the extent that there is                 does not have federalism implications                 of correspondence we normally receive
                                                        any economic impact, that impact will                   and does not impose substantial direct                on Federal Register documents
                                                        likely result in savings of Federal and                 compliance costs on State and local                   published for comment, we are not able
                                                        State dollars.                                          governments or preempt State law                      to acknowledge or respond to them
                                                                                                                within the meaning of the Executive                   individually. We will consider all
                                                        Unfunded Mandates Reform Act                                                                                  comments we receive by the date and
                                                                                                                Order.
                                                          Title II of the Unfunded Mandates                                                                           time specified in the DATES section of
                                                        Reform Act of 1995 (UMRA) (2 U.S.C.                     B. Paperwork Reduction Act                            this preamble, and will respond to the
                                                        1531–1538) establishes requirements for                   Under the Paperwork Reduction Act                   comments in the preamble of the final
                                                        Federal agencies to assess the effects of               (PRA) of 1995, before a collection-of-                rule.


                                                   VerDate Mar<15>2010   14:47 Mar 16, 2011   Jkt 223001   PO 00000   Frm 00049   Fmt 4702   Sfmt 4702   E:\FR\FM\17MRP1.SGM   17MRP1
                                                                               Federal Register / Vol. 76, No. 52 / Thursday, March 17, 2011 / Proposed Rules                                           14641

                                                        List of Subjects in 42 CFR Part 1007                    § 1007.20 Conditions under which data                 risk-based surveillance can be
                                                                                                                mining is permissible and approval by HHS             performed.
                                                          Administrative practice and                           Office of Inspector General.
                                                        procedure, Fraud, Grant programs—                                                                             DATES: Comments on the proposed rule
                                                                                                                   (a) Notwithstanding § 1007.19(e)(2), a             should be submitted in writing to the
                                                        health, Medicaid, Reporting and                         unit may engage in data mining and
                                                        recordkeeping requirements.                                                                                   address shown below on or before May
                                                                                                                receive Federal Financial Participation               16, 2011, to be considered in the
                                                          Accordingly, 42 CFR part 1007 is                      only under the three following                        formation of the final rule.
                                                        proposed to be amended as set forth                     conditions:
                                                                                                                                                                      ADDRESSES: Submit comments
                                                        below:                                                     (1) The activity has a defined duration
                                                                                                                and staff time devoted to the activity is             identified by DFARS Case 2010–D022,
                                                                                                                described;                                            using any of the following methods:
                                                        PART 1007—[AMENDED]                                                                                              Æ Regulations.gov: http://
                                                                                                                   (2) The MFCU identifies the methods
                                                                                                                                                                      www.regulations.gov.
                                                          1. Revise the authority citation to part              of cooperation between the MFCU and
                                                                                                                                                                         Submit comments via the Federal
                                                        1007 to read as follows:                                State Medicaid agency as well as a
                                                                                                                                                                      eRulemaking portal by inputting
                                                          Authority: 42 U.S.C. 1396b(a)(6),                     primary point of contact for data mining
                                                                                                                                                                      ‘‘DFARS Case 2010–D022’’ under the
                                                        1396b(b)(3), 1396b(q), and 1302.                        at the two agencies; and
                                                                                                                                                                      heading ‘‘Enter keyword or ID’’ and
                                                                                                                   (3) MFCU employees engaged in data
                                                          2. In § 1007.1, add in alphabetical                                                                         selecting ‘‘Search.’’ Select the link
                                                                                                                mining receive specialized training in
                                                        order the definition for ‘‘data mining’’ to                                                                   ‘‘Submit a Comment’’ that corresponds
                                                                                                                data mining techniques.
                                                        read as follows:                                                                                              with ‘‘DFARS Case 2010–D022.’’ Follow
                                                                                                                   (b) The MFCU shall describe how it
                                                                                                                                                                      the instructions provided at the ‘‘Submit
                                                        § 1007.1    Definitions.                                will comply with each of the conditions
                                                                                                                                                                      a Comment’’ screen. Please include your
                                                                                                                described in paragraph (a) of this
                                                        *      *     *    *     *                                                                                     name, company name (if any), and
                                                                                                                section as part of the agreement required
                                                           Data mining is defined as the practice                                                                     ‘‘DFARS Case 2010–D022’’ on your
                                                                                                                by § 1007.9(d).
                                                        of electronically sorting Medicaid                                                                            attached document.
                                                                                                                   (c) The Office of Inspector General,                  Æ E-mail: dfars@osd.mil. Include
                                                        claims through statistical models and                   Department of Health and Human
                                                        intelligent technologies to uncover                                                                           DFARS Case 2010–D022 in the subject
                                                                                                                Services, in consultation with the                    line of the message.
                                                        patterns and relationships contained                    Centers for Medicare & Medicaid
                                                        within the Medicaid claims activity and                                                                          Æ Fax: 703–602–0350.
                                                                                                                Services, approves in advance the                        Æ Mail: Defense Acquisition
                                                        history to identify aberrant utilization                provisions of the agreement as defined                Regulations System, Attn: Meredith
                                                        and billing practices that are potentially              in paragraph (b) of this section.                     Murphy, OUSD(AT&L)DPAP(DARS),
                                                        fraudulent.
                                                                                                                  Dated: May 14, 2010.                                Room 3B855, 3060 Defense Pentagon,
                                                        *      *     *    *     *                                                                                     Washington, DC 20301–3060.
                                                                                                                Daniel R. Levinson,
                                                           3. In § 1007.17, add paragraph (i) to                Inspector General.                                       Comments received generally will be
                                                        read as follows:                                          Dated: October 15, 2010.                            posted without change to http://
                                                                                                                                                                      www.regulations.gov, including any
                                                        § 1007.17    Annual report.                             Kathleen Sebelius,
                                                                                                                                                                      personal information provided. To
                                                        *      *     *     *    *                               Secretary, Department of Health and Human
                                                                                                                                                                      confirm receipt of your comment(s),
                                                                                                                Services.
                                                           (i) All costs expended that year                                                                           please check http://www.regulations.gov
                                                        attributed to data mining activities                      Editorial Note: This document was                   approximately two to three days after
                                                        under § 1007.20; the number of cases                    received in the Office of the Federal Register        submission to verify posting (except
                                                        generated from those data mining                        on March 10, 2011.                                    allow 30 days for posting of comments
                                                        activities; the outcome and status of                   [FR Doc. 2011–6012 Filed 3–16–11; 8:45 am]            submitted by mail).
                                                        those cases, including the expected and                 BILLING CODE 4152–01–P
                                                                                                                                                                      FOR FURTHER INFORMATION CONTACT:
                                                        actual monetary recoveries (both                                                                              Meredith Murphy, Defense Acquisition
                                                        Federal and non-Federal share); and any                                                                       Regulations System, OUSD (AT&L)
                                                        other relevant indicia of return on                     DEPARTMENT OF DEFENSE                                 DPAP (DARS), Room 3B855, 3060
                                                        investment from such activities.                                                                              Defense Pentagon, Washington, DC
                                                                                                                Defense Acquisition Regulations                       20301–3060. Telephone 703–602–1302;
                                                        *      *     *     *    *
                                                                                                                System                                                facsimile 703–602–0350.
                                                           4. In § 1007.19, revise paragraph (e)(2)
                                                        to read as follows:                                                                                           SUPPLEMENTARY INFORMATION:
                                                                                                                48 CFR Parts 209 and 252
                                                        § 1007.19    Federal financial participation                                                                  I. Background
                                                        (FFP).
                                                                                                                Defense Federal Acquisition
                                                                                                                Regulation Supplement; Identification                    This DFARS case was initiated at the
                                                        *      *     *    *     *                               of Critical Safety Items (DFARS Case                  request of the Defense Contract
                                                           (e) * * *                                            2010–D022)                                            Management Agency so that when DoD
                                                                                                                                                                      requiring activities identify
                                                           (2) Routine verification with
                                                                                                                AGENCY: Defense Acquisition                           procurements involving critical safety
                                                        recipients of whether services billed by
WReier-Aviles on DSKGBLS3C1PROD with PROPOSALS-1




                                                                                                                Regulations System, Department of                     items, the buying activities will include
                                                        providers were actually received, or,
                                                                                                                Defense (DoD).                                        a clause in the solicitation and resulting
                                                        except as provided in section 1007.20,
                                                                                                                ACTION: Proposed rule.                                contract that identifies specific items in
                                                        efforts to identify situations in which a
                                                                                                                                                                      the procurement that are critical safety
                                                        question of fraud may exist, including                  SUMMARY: DoD is proposing to amend                    items.
                                                        the screening of claims and analysis of                 the Defense Federal Acquisition                          The National Defense Authorization
                                                        patterns of practice that involve data                  Regulation Supplement (DFARS) to add                  Act for Fiscal Year 2004 (Pub. L. 108–
                                                        mining as defined in section 1007.1;                    a contract clause that clearly identifies             136), section 802, entitled ‘‘Quality
                                                        *      *     *    *     *                               any items being purchased that are                    Control in Procurement of Aviation
                                                           5. Add § 1007.20 to read as follows:                 critical safety items so that the proper              Critical Safety Items and Related


                                                   VerDate Mar<15>2010   14:47 Mar 16, 2011   Jkt 223001   PO 00000   Frm 00050   Fmt 4702   Sfmt 4702   E:\FR\FM\17MRP1.SGM   17MRP1
